IN THE SUPREME COURT OF THE UNITED STATES

No. 19-757

Arizona Libertarian Party and Michael Kielsky, Petitioners,
v.
Katie Hobbs, Arizona Secretary of State, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 15(2) and Rule 33(2), I certify that the Arizona
Secretary of State Katie Hobbs’ Brief in Opposition contains 19 pages, excluding the
parts of the brief that are exempted pursuant to Supreme Court Rule 33(1)(d). The
Brief therefore complies with Rule 33(2).

/s/ Kara Karlson

Kara M. Karlson
ARIZONA ATTORNEY GENERAL’S OFFICE
2005 N. Central Ave.
Phoenix, AZ 85004
602.542.5025
Kara.Karlson@azag.gov

